Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




USE OF FEDERAL CHILD SUPPORT
 CASE CLOSURE REGULATIONS




                    JANET REHNQUIST
                    Inspector General

                      FEBRUARY 2002
                      OEI 06-00-00470
                            OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                                Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Region VI prepared this report under the direction of Judith V. Tyler, Regional Inspector
General.

Principal OEI staff included:

DALLAS                                            HEADQUARTERS


Blaine Collins, Project Leader
                   Joan Richardson, Program Specialist

Amy Ashcraft

Ruth Ann Dorrill, Team Leader

Jennifer Kahende
                                 BALTIMORE

Clark Thomas

Nancy Watts
                                      Barbara Tedesco, Mathematical Statistician

Scott Whitaker

Lisa White




           To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
            Reports are also available on the World Wide Web at our home page address:

                                        http://www.oig.hhs.gov/oei
                           EXECUTIVE SUMMARY

PURPOSE

          To assess the use of Federal child support case closure regulations, and to identify any
          problems or vulnerabilities related to improper case closure.

BACKGROUND

          OCSE revised Federal regulations in 1999, allowing State child support agencies to close cases
          for twelve reasons, such as when an order has been paid in full or the noncustodial parent
          cannot be located, and requiring a 60-day advance notice of closure to the client under nine of
          the reasons. Case closure can help States concentrate resources on cases with a greater
          likelihood of success, maximize Federal incentive funding, and reduce data management
          demands. However, some advocates voice concern that States could be motivated to
          improperly close difficult-to-work cases. We reviewed records of a nationally representative
          sample of child support cases closed over a three-month period in 2000. We examined these
          records on three factors: 1) whether cases met one or more of the Federal closure reasons; 2)
          whether the recipient of services (typically a custodial parent or another State) was provided
          advance written notice of the agency’s intent to close the case; and 3) whether this notification
          occurred 60 days prior to closure as required. Federal regulations regarding State self-
          assessment establish a performance benchmark that allows for a case closure error rate of 10
          percent.

FINDINGS

We estimate a national case closure error rate of 32 percent, due primarily to
inadequate notification

          Three types of errors comprise the 32 percent error rate. Because some cases contained more
          than one error, the percentages for these three types do not total 32 percent.

          Ten percent of cases did not meet a Federal closure reason. Closing child support cases
          that do not meet one of the Federal closure reasons effectively halts enforcement action in cases
          deemed workable by Federal regulations.

          Twenty-five percent of cases requiring notice of closure did not have notice provided.
          Notice to clients of the agency’s intent to close the case is required to insure that clients are
          aware of the agency’s intended action in the case, and may prompt a client to supply additional
          information that could result in successful enforcement.

          Eleven percent of cases that received notice of closure were closed before the full 60
          days had elapsed. The 60-day advance notice is designed to provide clients sufficient time to
          react to the agency’s action.


Use of Federal Child Support Case Closure Regulations   i                                      OEI 06-00-00470
          Cases with public assistance clients contained more errors. For reasons unknown, we
          found that closure errors occurred in a significantly greater proportion of cases involving current
          or former Temporary Assistance for Needy Families (TANF) recipients than cases of clients
          never enrolled in the TANF program.

Six reasons account for 94 percent of closures and 96 percent of closure errors

          The six reasons are:


          C          Inability to Locate Noncustodial Parent or Alleged Father

          C          Inability to Establish Paternity 

          C          No Enforceable Order, and Arrearage Less Than $500

          C          Non-TANF Client Requests Closure 

          C          Non-TANF Client Uncooperative 

          C          Lost Contact with Non-TANF Client


          Thirty-one percent of cases were closed because the child support agency does not have

          enough information to locate the noncustodial parent or alleged father, or to establish paternity. 

          We found some errors in cases closed for these reasons because of a lack of required location

          efforts and client interviews, but most errors associated with the use of these two closure

          reasons were due to a lack of adequate notification. Twenty-six percent of cases were closed

          for having no enforceable support order and little or no arrears, and these cases also often

          lacked adequate advance notice to clients. Cases closed for reasons that apply only to non-

          TANF clients also contained errors involving notice. This was particularly true for cases closed

          because the agency had lost contact with the non-TANF custodial parent. 


CONCLUSION

          It is noteworthy that the vast majority of child support case closures met at least one of the
          Federal closure reasons. However, inadequate provision of advance notice to clients appears
          to be largely responsible for preventing achievement of the 90 percent performance benchmark.
          We encourage OCSE to work with States to undertake efforts to reduce the error rate. It
          would be especially useful to focus on improving processes for providing advance notice of
          closure, particularly related to use of the six most frequently used closure reasons. A
          companion report, “Challenges in Closing Child Support Cases” (OEI 06-00-00471),
          describes effective practices States use to reduce errors and improve their case closure
          activities, and provides specific recommendations to OCSE and States.

AGENCY COMMENTS

          The Administration for Children and Families (ACF) generally agreed with the findings and
          conclusions of this report, and described on-going and planned reviews that could assist States
          in improving case closure through automation.




Use of Federal Child Support Case Closure Regulations   ii                                       OEI 06-00-00470
              TABLE              OF        CONTENTS

                                                                 PAGE


EXECUTIVE SUMMARY
                                                   i

INTRODUCTION
                                                        1

FINDINGS


     Case Closure Accuracy
                                          5

     Use of Closure Reasons
                                         7

     Conclusion
                                                     9

ENDNOTES
                                                          10

APPENDIX A:        Case Closure Regulations 45 CFR Sec. 303.11     A-1


APPENDIX B:        Additional Statistics                           B-1


APPENDIX C:        Agency Comments                                C-1

                                       INTRODUCTION


PURPOSE

          To assess the use of Federal child support case closure regulations, and to identify any
          problems or vulnerabilities related to improper case closure.

BACKGROUND

          Federal law has long recognized that State child support agencies must have the capability to
          close cases for various reasons. For example, States close cases in which a child support order
          is no longer enforceable because the child emancipates. States may also wish to close cases
          with little likelihood of successful enforcement, such as cases in which the custodial parent
          provides little or no information about the noncustodial parent or alleged father. Because child
          support will not be enforced once a case is closed, States must exercise care in closing cases.
          Federal regulation is designed to ensure that cases are closed only after they are completely
          resolved or determined to be unworkable.

Federal Regulations

          Under the 1988 Family Support Act, the Federal Office of Child Support Enforcement
          (OCSE) established case closure criteria allowing States to close certain cases.1 However,
          these regulations were criticized by some who argued the regulations made it too difficult to
          close unworkable cases. In response to the complaints, in 1996 OCSE formed a review
          committee comprised of staff and elected officials from local, State, and Federal governments
          to review the regulations. The committee review led to revised Federal case closure regulations
          that became effective April 9, 1999.2 According to the final rule, the new regulations “balance
          [OCSE’s] concern that all children receive the help they need in establishing paternity and
          securing support, while being responsive to administrative concerns for maintaining caseloads
          that include only those cases in which there is adequate information or likelihood of successfully
          providing support.”3 The 1999 rule generally made it easier for States to close more cases. It
          also enhanced client safeguards designed to insure that States notify clients before closing
          cases.

          Current regulations allow States to close cases that meet one or more of twelve reasons. Nine
          of the twelve closure reasons require that the recipient of services (typically a custodial parent
          or another State) must be notified of the agency’s intent to close the case.




Use of Federal Child Support Case Closure Regulations   1                                        OEI 06-00-00470
                Twelve Allowable Closure Reasons Under Federal Regulations

                Notice Required
                        No Enforceable Order, and Arrearages Less Than $500
                        Noncustodial Parent is Deceased
                        Paternity Cannot Be Established
                        Noncustodial Parent’s Location is Unknown
                        Noncustodial Parent is Disabled, Institutionalized, or Incarcerated
                        Noncustodial Parent is a Foreign Citizen
                        Agency has Lost Contact with a Non-TANF Client
                        A Non-TANF Client is Non-cooperative
                        An Initiating State is Non-responsive in an Interstate Case

                Notice Not Required
                        Agency has Completed Locate-only Services in Non-TANF Case
                        Non-TANF Custodial Parent Requests Closure
                        A Good Cause Exception has Been Granted




          This notice must be provided in writing 60 days before the case may be closed. A case must
          be kept open if, within 60 days, new information becomes available which could lead to the
          establishment of paternity or a support order, or to enforcement of an existing order. Once a
          case is closed, the recipient of services may request that the case be reopened if circumstances
          change and enforcement becomes possible. All records for closed cases must be retained for a
          minimum of three years. The Federal case closure regulations are reprinted in Appendix A.

State Incentives To Close Cases

          States have at least three apparent incentives for closing cases: concentrating resources on
          cases with greater likelihood of success; maximizing Federal incentive funding; and reducing
          data management demands. Closing unworkable cases allows States to allocate their limited
          resources to cases with greater potential for successful enforcement. States can also improve
          their child support enforcement performance indicators, upon which much of Federal incentive
          funding is based, by reducing the total number of cases in their caseload.4 Additionally, case
          closure can help States reduce data management demands by eliminating duplicate and
          outdated cases. While these incentives are viewed as legitimate reasons for closing unworkable
          cases, some advocates have voiced concern that States could be motivated to close difficult-to-
          work cases even though they may not meet a Federal closure reason.

Monitoring Case Closures

          Until the mid-1990s, OCSE conducted compliance audits of State child support cases which
          included an analysis of closed cases. With the passage of the Personal Work and Opportunity
          Reconciliation Act, OCSE replaced compliance audits with a requirement that States conduct
          annual self-assessments of their own performance.5 States were required to begin reporting the
          results of their self-assessments, and any corrective actions proposed or taken, to OCSE in
          Fiscal Year 1998.6 States are encouraged to use their self-assessments as management tools
          to identify any weaknesses, non-compliance with

Use of Federal Child Support Case Closure Regulations     2                                   OEI 06-00-00470
          regulations, and opportunities for improvement. Case closure is one of eight required
          categories States must assess. Federal self-assessment regulations require that at least 90
          percent of closed cases reviewed by States meet the Federal regulations.7 Thus, this
          benchmark allows for a case closure error rate of 10 percent.

          State self-assessments provide information about child support case closure activities in
          individual States. The reports for Fiscal Year 1999 showed many States had improperly
          closed at least some cases, and State child support agencies proposed a variety of corrective
          actions. These reports helped to identify potential vulnerabilities related to closing child support
          cases, as well as effective practices.8 However, there has been no national review since the
          new regulations were issued in 1999.



METHODOLOGY

          To provide more comprehensive information, we reviewed the records of a nationally
          representative sample of child support cases closed over a three-month period in 2000. The
          results of our case record reviews are presented in this report. Additionally, we interviewed
          State child support agency personnel in ten States to gain an in-depth understanding of their
          experience in using the 1999 case closure regulations. We present our findings from these
          interviews in a companion report entitled, “Challenges in Closing Child Support Cases” (OEI
          06-00-00471).

Study Focus

          Our case record reviews focused on both the case circumstances and the processes used by
          State child support agencies to close cases. We also examined case records to determine
          whether cases met one or more of the Federal closure reasons, whether the recipient of
          services was provided advance written notice of the agency’s intent to close the case, and
          whether this notification occurred 60 days prior to closure as required.

Sample Of Closed Cases

          To obtain a nationally representative sample of closed child support cases, we used a two-
          stage, stratified-cluster sampling method. We first stratified the 48 contiguous States9 and the
          District of Columbia into two groups: one stratum included cases from the eight States with the
          largest child support caseloads (known as the ‘Big 8 States’);10 and the other stratum included
          cases from all other States. We stratified in this manner to insure that our sample contained
          cases from some of the Big 8 States which have about 50 percent of the nation’s child support
          caseload,11 as well as cases from a number of States with smaller caseloads. In each stratum,
          we considered a single State’s caseload as a cluster of cases. For the first stage of sampling,
          we randomly selected four States from the large-State stratum: California; New York; Ohio;
          and Pennsylvania. We also randomly selected six States from the other stratum: Alabama,
          Connecticut, Mississippi, Montana, New Mexico, and South Carolina.12


Use of Federal Child Support Case Closure Regulations   3                                         OEI 06-00-00470
          To draw a sample of cases for review, we requested that each selected State provide a list of
          all cases closed during May, June, and July 200013 and the reason for closure.14 To focus our
          review on the twelve Federal closure reasons, we did not include in the sample frame cases
          closed because they were duplicate cases or were opened in error.15 The list of cases closed
          for a Federal closure reason made up our sampling frame for each State. At the second stage
          of sampling, we randomly selected 50 cases from each selected State’s sampling frame, for a
          total sample of 500 cases. This two-stage, stratified-cluster sample yields national estimates at
          a 95 percent confidence level, unless otherwise specified. Given our national focus for this
          study, and sampling method to achieve it, our resulting data does not allow precise analysis of
          individual States.

Data Collection

          An OIG analyst visited each State to review the selected cases. We gathered the information
          needed primarily from official electronic records, supplemented by paper records as necessary
          to insure completeness. States provided staff to train our analysts on navigating automated
          systems. Analysts entered case information into a standardized database on-site, which we
          later merged with all other case data. However, data-cleaning revealed that five cases did not
          meet our selection criteria because they were either duplicate cases or were opened in error.
          After eliminating these cases, we had complete data on 495 cases.

Data Analysis

          We reviewed records to determine whether each case met all Federal case closure
          requirements. We designated cases as having been closed correctly if the case record review
          revealed each of the following: 1) the case met conditions necessary to be closed for one or
          more of the twelve Federal closure reasons;16 2) the child support agency notified the recipient
          of services in writing of intent to close the case (required for nine closure reasons); and 3)
          closure occurred no sooner than 60 days after notification (when notice was required and
          provided).17

          We generated national estimates of the proportion of cases closed in accordance with all
          Federal regulations, and for each of the three factors. We used statistical software to adjust for
          the stratified-cluster sampling method, and we weighted estimates based on the number of
          cases closed by each sampled State during the sample period. Additionally, we generated
          statistics regarding the relative use of the twelve Federal closure reasons and the public
          assistance status of the recipient of services at the time of closure. Records were available for
          all sampled cases, eliminating any non-response issues. Descriptive statistics are expressed as
          percentages and, where appropriate, statistical differences between categorical variables were
          assessed using the appropriate test.

          This study was conducted in accordance with the Quality Standards for Inspections issued by
          the President’s Council on Integrity and Efficiency.



Use of Federal Child Support Case Closure Regulations   4                                       OEI 06-00-00470
                                                  FINDINGS

CASE CLOSURE ACCURACY

          Nationally, our sample indicates that while 90 percent of closures met at least one of the
          Federal closure reasons, 32 percent did not meet all Federal case closure requirements (Table
          1). This overall performance level fell considerably short of the benchmark of a 10 percent
          tolerable error rate established by OCSE. However, most closure errors occurred due to a
          lack of adequate notification rather than because cases did not meet a Federal closure reason.

               Table 1: Case Closure Errors

                                                                                             Percent of Cases
                Overall                                                                         with Error a

                     Case did not meet all federal closure requirements (n=495)                    32 %

               Type of Error b

                     Case did not meet a federal closure reason (n=495)                            10 %

                     Notice was not provided to recipient of services (n=372)                      25 %

                     Closure occurred before 60-days had elapsed (n=267)                           11 %
               a
                Confidence intervals provided in Appendix B.

               b
                Type of error percentages do not total 32 percent because some cases contain more than one

               error.





About 10 percent of child support cases closed did not meet a Federal closure
reason, halting enforcement of workable cases

          We estimate that approximately one out of every 10 child support cases closed in the nation
          during the sample period did not meet a Federal closure reason. Closing cases for unallowed
          reasons creates a great vulnerability because Federal regulations deem these workable cases at
          the time of closure, without the need for additional information or substantial changes in
          circumstances. In a few of these cases, the case record reveals that the State child support
          agency recognized the case had been closed in error, and subsequently reopened the case.
          Most cases, however, were still closed at the time of our review. While no payments were
          being made on any of these cases at the time they were improperly closed, it is possible that
          they could have become paying cases if further enforced.

          We also found an additional 11 percent of cases that did not meet the reason documented in
          the case record, but did meet another Federal closure reason. If we had reviewed these cases
          only on the closure reason documented in case records, the proportion of cases not meeting a
          Federal closure reason would have approximately doubled. Based on our


Use of Federal Child Support Case Closure Regulations       5                                      OEI 06-00-00470
          review, having the wrong closure reason in case records was sometimes due to simple data
          coding errors, while other errors appear to be due to staff misunderstanding or misapplying the
          Federal closure reasons. Clients in these cases, when notification occurred, were likely given
          the erroneous closure reason, potentially hindering their appropriate reaction.

Clients were not notified in 25 percent of cases requiring advance notice, and
were not given the full 60 days to respond in 11 percent of cases

          Records indicate that the recipient of services was not provided written advance notice of the
          agency’s intent to close the case in 25 percent of cases requiring notification. Federal
          regulations require written notice 60 days prior to closure, partly to inform the client that the
          agency will no longer be working on the case. Notification also serves to solicit additional
          information from clients that could lead to successful enforcement of some cases. About 10
          percent of cases lacking notification also did not meet a Federal closure reason, suggesting the
          clients in those cases had no opportunity to prevent the improper closure. While the remaining
          cases lacking notification appeared to meet at least one of the Federal closure reasons, it is
          unclear whether proper notification would have changed those circumstances.

          In 11 percent of cases for which notice was provided, closure occurred before the 60-day
          notification period had elapsed. In the final rule for the new case closure regulation, OCSE
          reiterated “that the 60 calendar day time frame has worked well” [to allow clients sufficient
          opportunity to prevent an unwanted closure], and believes it would be inappropriate to shorten
          the time frame.18 Among cases closed sooner than 60 days after notice, several closed on the
          same day or within a couple of days of notification. In interviews, some State child support
          agency respondents explained that, despite Federal requirements, caseworkers may consider it
          more efficient to simply inform a client that their case has been closed rather than provide
          advance notice. Respondents added that it is fairly easy to reopen a case should the parent
          respond to a final closure letter with more information.

Higher error rates among closures involving TANF recipients could hinder
enforcement for vulnerable families

          Our review found some type of closure errors in 43 percent of cases involving current and
          former Temporary Assistance for Needy Families (TANF) clients, compared to only 21
          percent among never-TANF clients. This represents a significant difference in outcomes for the
          two groups.19 The reasons for this difference are currently unclear and may warrant additional
          research. Improper closures for current and former TANF recipients are of particular concern
          because child support payments can often mean the difference between reliance on public
          assistance and self-sufficiency. Closing cases that do not meet allowable reasons, or not
          providing adequate advance notice of closure, could stop enforcement efforts on workable
          cases involving families who could benefit greatly from successful enforcement.




Use of Federal Child Support Case Closure Regulations   6                                       OEI 06-00-00470
USE OF CLOSURE REASONS

Six closure reasons account for 95 percent of all case closures

          As shown in Table 2, we estimate that six Federal closure reasons account for the vast majority
          of child support case closures, and two of these reasons are used in about half of closures.
          Many closed cases were never fully enforced, such as cases closed because the agency could
          not locate a noncustodial parent or alleged father. Other cases were closed because they had
          been successfully enforced, such as when an obligation had been paid in full and there was no
          longer an enforceable order. The following findings discuss improper closures under these six
          prominent closure reasons.

            Table 2: Distribution of Federal Closure Reasons 20

                                                                                    Percent of Cases
                                       Federal Closure Reason                    Using Reason* (N=495)

            No enforceable order, and arrearage less than $500                           26 %

            Unable to locate noncustodial parent or alleged father                       24 %

            Non-TANF client requests closure                                             18 %

            Non-TANF client uncooperative                                                12 %

            Lost contact with non-TANF client                                             8%

            Unable to establish paternity                                                 7%

            All other reasons                                                             5%

            * Percentages reflect weighted values.


About 26 percent of cases were closed for having no enforceable support order
and little or no arrears, but these cases often lacked adequate notification

          Many different kinds of cases are eligible for closure under this single Federal closure reason.
          In more than half of cases closed for this reason, the child emancipated or the obligation was
          paid in full. Another large proportion of these cases were closed after a substantial change in
          family arrangements, including reconciliation of the parents, a change in custody, or an
          adoption. Other cases were closed using this reason when their orders were deemed
          unenforceable under individual State rules. Examples include when the noncustodial parent had
          low income or was receiving public assistance at the time of closure, and when the custodial
          parent moved out of the State or local jurisdiction.

          Our review revealed that cases closed for having no enforceable support order and little or no
          arrearages had the highest incidence of errors among all closure reasons. While most cases met
          the Federal closure reason, over one-third of cases closed for this reason did not include
          written notice of the agency’s intent to close the case. Advance notice might be particularly
          important in such cases as when an emancipated child is still attending high school or college
          and potentially eligible to continue collecting support payments. In

Use of Federal Child Support Case Closure Regulations      7                                    OEI 06-00-00470
          such cases, it would be important for the custodial parent to communicate with the child support
          agency regarding the teenager’s academic enrollment. However, the nature of some cases
          closed for this reason, such as those involving reconciliation of the parents, provides partial
          explanation for why an agency might not have deemed it necessary to provide notice.

Thirty-one percent of cases were closed because of an inability to locate the
noncustodial parent or to establish paternity

          Twenty-four percent of cases were closed because the agency did not have enough information
          to locate a noncustodial parent or alleged father. Federal regulations require child support
          agencies to attempt to locate an absent parent for at least one year before closing the case in
          situations where little information exists. If the noncustodial parent’s or alleged father’s name
          and Social Security number are known, the agency must continue automated locate efforts for
          at least three years before closure. We found that in about one-fifth of cases closed for this
          reason, States either did not continue location efforts as long as required, or did not follow-up
          on recent locate information.

          States closed seven percent of cases because paternity could not be established. These
          closures mostly consisted of cases in which the client had not named an alleged father, or the
          man named was excluded by genetic testing and no additional names were provided. When the
          identity of the biological father is unknown, Federal regulations require State child support
          agencies to interview the recipient of services at least once prior to closing the case using this
          reason. While at least one interview occurred in almost every case involving this closure reason
          that we reviewed, case records indicate that a few clients were not re-contacted to provide an
          additional name when an alleged father was excluded by genetic testing.

          Most of the errors associated with the use of these two closure reasons involved lack of
          adequate notification. Notification of the agency’s intent to close the case is considered to be
          particularly crucial in cases such as these where insufficient information has been provided by
          the custodial parent. Notice could serve as a client’s last chance to relay any information they
          have about a noncustodial parent or alleged father. Additionally, families involved in cases
          closed for these reasons are potentially among the most vulnerable in the child support
          caseload. In our sample of cases closed for these reasons, most clients were current and
          former TANF recipients.

Cases closed for reasons that apply only to non-TANF clients also contain errors
involving notice

          Eight percent of cases were closed due to a loss of contact with the non-TANF recipient of
          services. In such cases, Federal regulations require at least one attempt to contact the client by
          mail. If the agency receives no response within 60 days, it can then mail to the client’s last
          known address the 60-day advance notice of its intent to close the case. In nearly all cases
          closed for this reason, the agency either did not make the first contact attempt, did not provide
          advance notice of its intent to close the case, or did not wait one


Use of Federal Child Support Case Closure Regulations   8                                       OEI 06-00-00470
          or both of the required 60-day time periods prior to closure. Some managers reported being
          confused by the language of the regulations regarding this closure reason, while others indicated
          that the resulting two 60-day waiting periods seemed unreasonable considering that the agency
          has lost contact with the non-TANF client.

          Twelve percent of cases were closed because the agency had documented that the non-TANF
          client was not cooperating, typically by failing to respond to a letter, failing to appear for an
          interview or court hearing, or not providing additional information about the noncustodial parent
          or alleged father as requested. We generally found that the client’s non-cooperation was well
          documented, but many of these cases lacked adequate notification. Eighteen percent of cases
          were closed because the non-TANF client requested closure. Notification is not required
          when using this reason, and we found few errors with its use.

CONCLUSION

          It is noteworthy that the vast majority of child support case closures met at least one of the
          Federal closure reasons. However, inadequate provision of advance notice to clients appears
          to be largely responsible for preventing achievement of the 90 percent performance benchmark.
          We encourage OCSE to work with States to undertake efforts to reduce the error rate. It
          would be especially useful to focus on improving processes for providing advance notice of
          closure, particularly related to use of the six most frequently used closure reasons. A
          companion report, “Challenges in Closing Child Support Cases” (OEI 06-00-00471),
          describes effective practices States use to reduce errors and improve their case closure
          activities, and provides specific recommendations to OCSE and States.

AGENCY COMMENTS

          The Administration for Children and Families (ACF) generally agreed with the findings and
          conclusions of this report. ACF described that on-going systems certification reviews and
          planned “Level of Automation” reviews could assist States in improving case closure through
          automation. We agree that improvements in automated system capabilities can certainly help to
          reduce future case closure errors. In the meantime, considering that case closure is not fully-
          automated in many States, we encourage ACF to work with States to reduce errors generated
          through their current procedures. ACF comments are provided in their entirely in Appendix C.




Use of Federal Child Support Case Closure Regulations   9                                      OEI 06-00-00470
                                                        ENDNOTES


1. OCSE Action Transmittal 89-15, August 4, 1989.

2. Federal Register, Volume 64, No.46, March 10, 1999, pp. 11810-11818.

3. Ibid., page 11811.

4. Federal Register Volume 64, No.195, October 8, 1999, pp. 55073 - 55102.

5. Ibid., pages 55102 - 55110. “Federal audit requirements were changed to focus on data reliability
and to assess performance outcomes instead of determining compliance with process steps.”

6. 45 CFR Sec. 308.1 (e).

7. 45 CFR Sec. 308.2 (a).

8. At the time of our study, States had not yet standardized their self-assessment methodologies
enough for comparison across States.

9. Hawaii and Alaska were excluded from the sample frame because of the high cost of travel to those
States if they had been selected.

10. OCSE often targets technical assistance and evaluation efforts toward these Big 8 States because
their practices affect so many families. New Jersey was added to OCSE’s large State initiative, now
called “Big 8 + 1,” subsequent to our sample selection for this study.

11. Office of Child Support Enforcement, Dear Colleague Letter 97-26, May 19, 1997.

12. Resources limited us to sampling from only 10 clusters. We considered that including cases from
half of the Big 8 States (4 clusters) was reasonable, which left 6 clusters for the other stratum.

13. Field work revealed that seven cases in one State actually closed in August, 2000, and we kept
these cases in our final sample. Another State provided a list of cases in which the closure process
began in May, June, and July, 2000, rather than the actual closure occurring in that time period, and we
used these cases as the sampling frame for that State. We do not believe these deviations had a
substantial effect on our findings.

14. The automated systems of California and New York would not allow inclusion of closure reasons at
the time of sampling, although we were later able to determine the reason for closure during fieldwork.
To insure that our sample included cases closed for one of the Federal closure reasons, we over-
sampled in these States and then randomly selected which cases would be reviewed once we obtained
information about the closure reason.

15. States reported using the ‘duplicate case’ closure reason in situations such as when two local
jurisdictions had a case open for the same parties. Closing one of the cases simply eliminates the
duplication, while the parties continue to have an open case in the State. The “open in error” closure


Use of Federal Child Support Case Closure Regulations      10                                OEI 06-00-00470
reason is typically used to correct data-entry mistakes in State automated systems.

16. We only evaluated cases on a closure reason other than the one designated in the case record when
conditions were not met for closure under the designated reason. If such a case met the conditions for
closure under another reason, we considered that it met Federal requirements. We did this to
differentiate between cases closed improperly, and those in which a closure code may have been
inadvertently input in an automated system but the case could have legitimately been closed. In such
cases, notification was evaluated on the reason for closure that the case legitimately met rather than the
one the State recorded.

17. In a few cases, the recipient of services received notification and contacted the State agency to
agree to close the case sooner than 60 days. We considered that these cases met the 60-day
requirement.

18. Federal Register, Volume 64, No.46, March 10, 1999, page 11817.

19. The Cochran-Mantel-Haenszel Chi-Square Test was significant with a P-value of 0.0714,
representing a statistical difference at a 90 percent confidence level.

20. The frequencies and percentages in Table 2 include the 55 cases for which we reassigned the
closure reason.




Use of Federal Child Support Case Closure Regulations   11                                    OEI 06-00-00470
                                                                                              APPENDIX A


Code of Federal Regulations 45
Sec. 303.11 Case Closure Criteria.

(a) The IV-D agency shall establish a system for case closure.

(b) In order to be eligible for closure, the case must meet at least one of the following criteria:
         (1) There is no longer a current support order and arrearages are under $500 or unenforceable
         under State law;
         (2) The noncustodial parent or putative father is deceased and no further action, including a levy
         against the estate, can be taken;
         (3) Paternity cannot be established because:
                  (i) The child is at least 18 years old and action to establish paternity is barred by a

                  statute of limitations which meets the requirements of Sec. 302.70(a)(5) of this chapter;

                  (ii) A genetic test or a court or administrative process has excluded the putative father

                  and no other putative father can be identified; or

                  (iii) In accordance with Sec. 303.5(b) of this part, the IV-D agency has determined that

                  it would not be in the best interests of the child to establish paternity in a case involving

                  incest or forcible rape, or in any case where legal proceedings for adoption are

                  pending;

                  (iv) The identity of the biological father is unknown and cannot be identified after

                  diligent efforts, including at least one interview by the IV-D agency with the recipient of

                  services;

         (4) The noncustodial parent's location is unknown, and the State has made diligent efforts using
         multiple sources, in accordance with Sec. 303.3, all of which have been unsuccessful, to locate
         the noncustodial parent:
                  (i) Over a three-year period when there is sufficient information to initiate an automated

                  locate effort, or

                  (ii) Over a one-year period when there is not sufficient information to initiate an

                  automated locate effort;

         (5) The noncustodial parent cannot pay support for the duration of the child's minority because

         the parent has been institutionalized in a psychiatric facility, is incarcerated with no chance for

         parole, or has a medically-verified total and permanent disability with no evidence of support

         potential. The State must also determine that no income or assets are available to the

         noncustodial parent which could be levied or attached for support;

         (6) The noncustodial parent is a citizen of, and lives in, a foreign country, does not work for the

         Federal government or a company with headquarters or offices in the United States, and has no

         reachable domestic income or assets; and the State has been unable to establish reciprocity

         with the country;

         (7) The IV-D agency has provided location-only services as requested under Sec.

         302.35(c)(3) of this chapter;

         (8) The non-IV-A recipient of services requests closure of a case and there is no assignment to

         the State of medical support under 42 CFR 433.146 or of arrearages which accrued under a

         support order;


Use of Federal Child Support Case Closure Regulations   A-1                                       OEI 06-00-00470
                                                                                            APPENDIX A


          (9) There has been a finding by the responsible State agency of good cause or other exceptions

          to cooperation with the IV-D agency and the State or local IV-A, IV-D, IV-E, Medicaid or

          food stamp agency has determined that support enforcement may not proceed without risk of

          harm to the child or caretaker relative;

          (10) In a non-IV-A case receiving services under Sec. 302.33(a)(1) (i) or (iii), the IV-D

          agency is unable to contact the recipient of services within a 60 calendar day period despite an

          attempt of at least one letter sent by first class mail to the last known address;

          (11) In a non-IV-A case receiving services under Sec. 302.33(a)(1) (i) or (iii), the IV-D

          agency documents the circumstances of the recipient of services's noncooperation and an action

          by the recipient of services is essential for the next step in providing IV-D services.

          (12) The IV-D agency documents failure by the initiating State to take an action which is

          essential for the next step in providing services.


(c) In cases meeting the criteria in paragraphs (b) (1) through (6) and (10) through (12) of this section,
the State must notify the recipient of services, or in an interstate case meeting the criteria for closure
under (b)(12), the initiating State, in writing 60 calendar days prior to closure of the case of the State's
intent to close the case. The case must be kept open if the recipient of services or the initiating State
supplies information in response to the notice which could lead to the establishment of paternity or a
support order or enforcement of an order, or, in the instance of paragraph (b)(10) of this section, if
contact is reestablished with the recipient of services. If the case is closed, the former recipient of
services may request at a later date that the case be reopened if there is a change in circumstances
which could lead to the establishment of paternity or a support order or enforcement of an order by
completing a new application for IV-D services and paying any applicable application fee.

(d) The IV-D agency must retain all records for cases closed pursuant to this section for a minimum of
three years, in accordance with 45 CFR part 74.




Use of Federal Child Support Case Closure Regulations   A-2                                      OEI 06-00-00470
                                                                                                        APPENDIX B



 Additional Statistics: Error Rate Estimates with Confidence Intervals

                                                                                                          95 Percent
                                          Errors                                       Proportion         Confidence
                                                                                        Estimate           Interval

 OVERALL: Case Did Not Meet All Federal Closure Requirements                               31.6 %        19.2% - 44.1%
 (n=495)

    Case Did Not Meet A Federal Closure Reason (n=495)                                     9.6 %         6.7% - 12.5%

    Notice Was Not Provided to Recipient of Services (n=372)                               24.7 %        9.8% - 39.6%

    Closure Occurred Before 60-Days Had Elapsed (n=267)                                    10.9 %        0.2% - 21.7%

    Errors Among Current and Former TANF Cases (n=261)                                     42.8 %        26.7% - 58.9%

    Errors Among Never-TANF Cases (n=227)                                                  20.6 %        12.0% - 29.2%

    Cases With Wrong Reason Documented in Record (n=495)                                   10.6 %        5.9% - 15.2%




 Additional Sampling Statistics

             State                    Population of Cases                 Cases Selected            States in Stratum

 Large State Stratum

 CALIFORNIA                                             18,348                 50                          8

 NEW YORK                                               30,731                 50                          8

 OHIO                                                   11,773                 50                          8

 PENNSYLVANIA                                           91,591                 50                          8

 Other State Stratum

 ALABAMA                                                 9,395                 50                          41

 CONNECTICUT                                             9,407                 50                          41

 MISSISSIPPI                                            13,584                 50                          41

 MONTANA                                                 2,457                 50                          41

 NEW MEXICO                                               872                  50                          41

 SOUTH CAROLINA                                         10,325                 50                          41




Use of Federal Child Support Case Closure Regulations            B - 1
                                        OEI 06-00-00470
                                                                 APPENDIX C





Use of Federal Child Support Case Closure Regulations   C - 1
     OEI 06-00-00470
                                                                 APPENDIX C





Use of Federal Child Support Case Closure Regulations   C - 2
     OEI 06-00-00470
                                                                 APPENDIX C





Use of Federal Child Support Case Closure Regulations   C - 3
     OEI 06-00-00470
